No. 20-979
IN THE

Supreme Court of the United States
PANKAJKUMAR S. PATEL and JYOTSNABEN P. PATEL,
Petitioners,
v.
MERRICK B. GARLAND, ATTORNEY GENERAL,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

SUPPLEMENTAL CERTIFICATE OF SERVICE
I, Thomas G. Sprankling, a member of the bar of this Court, hereby certify that,
on this 1st day of September, 2021, Court-Appointed Amicus was served copies of the
Brief for Petitioners in this matter by overnight courier at their address below.
Counsel of Record for Respondent was previously served on August 31, 2021.
Counsel of Record for Respondent
BRIAN H. FLETCHER
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
(202) 514-2203
SupremeCtbriefs@usdoj.gov

Counsel of Record
for Court-Appointed Amicus
TAYLOR ANN RAUSCH MEEHAN
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Suite 700
(317) 408-3650
Arlington, VA 22209
taylor@consovoymccarthy.com

THOMAS G. SPRANKLING
WILMER CUTLER PICKERING
HALE AND DORR LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
(650) 858-6000
thomas.sprankling@wilmerhale.com

